No. 19-224
IN THE SUPREME COURT OF THE UNITED STATES
BRYAN JAMES STROTHER, SFC.,
California Army National Guard,
Petitioner,
v.
DAVID S. BALDWIN, Adjutant General,
State of California Army National Guard;
MIKE MCCORD, Pentagon Comptroller;
DEFENSE FINANCE AND ACCOUNTING SERVICES;
United States Department of Defense,
Respondent.
CERTIFICATE OF COMPLIANCE WITH RULE 33.l(g)
I, Daniel C. Willman, counsel for Petitioner Bryan James Strother, hereby
certify that, according to the word-count tool in WordPerfect Corel, the Rehearing Brief
of Petitioner consists of 1,277 words, including footnotes and excluding the sections
enumerated by Rule 33. l(d). This Brief is compliant with Rule 33. l(g).
1.

Per Rule 34 (g)(2) Table of contents not required Brief is under word count.

2.

Per Rule 38, $200. Rehearing fee submitted with filing.

3.

Cert was denied on Monday, January 13, 2020. Petition for Rehearing due no
later then Friday February 7, 2020.

4.

At the end of each brief: Certificate of Counsel Supreme Court Rule
44(1).
S/Daniel C. Willman
Daniel C. Willman
Counsel for Petitioner
P.O. 606
Pinckney, MI 49169
248-231-0705
danielcwillman@aol.com

Dated: January 30, 2020

